                                      SOCIAL SECURITY
MEMORANDUM

Date:      September 24, 2007                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)


           We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate the Social
           Security Administration’s performance indicators established to comply with the
           Government Performance and Results Act. Attached is the final report presenting the
           results of the performance indicators PwC reviewed.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                          Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     PERFORMANCE INDICATOR
       AUDIT: STAFF SKILLS
        AND PRODUCTIVITY

   September 2007   A-02-07-17127




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

     Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
     Promote economy, effectiveness, and efficiency within the agency.
     Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
     Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
     Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

     Independence to determine what reviews to perform.
     Access to all information necessary for the reviews.
     Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      September 13, 2007

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)


OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer
              processed data. Data are reliable when they are complete, accurate,
              consistent and are not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in the Fiscal Year
              (FY) 2006 Performance and Accountability Report (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.


1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                           1
BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2006 PAR:

      Performance Indicator               FY 2006 Goal                FY 2006 Reported
                                                                           Results
    Align employee                Develop a communication
    performance with Agency       and training plan to facilitate
    mission and strategic goals   implementation of the new
                                  performance assessment
                                  system for employees at
                                  the General Schedule (GS)-
                                                                             Completed 5
                                  14 and below level and GS-
                                  15s who are covered by the
                                  SSA /American Federation
                                  of Government Employees
                                  (AFGE) National
                                  Agreement
    Minimize skill and            Competency-based entry-
    knowledge gaps in mission-    level training curriculum will
    critical positions            be developed for 100% of
                                  the remaining targeted
                                  public contact positions -                 Completed 6
                                  Benefit Authorizers (BA),
                                  Claims Authorizers (CA),
                                  and Technical Support
                                  Technicians (TST)
    Continue to achieve 2
    percent productivity                  2% on average               2.49% on average 7
    improvement on average

By 2010, it is anticipated that approximately 40 percent of SSA's employees will be
eligible to retire. In addition, the Agency's workloads are expected to grow dramatically
as the "baby boom" generation approaches their peak disability and retirement years.
SSA reported that its greatest organizational challenge is to ensure that it has a
workforce with the skills and tools necessary to process the increasing workloads. 8

SSA reported their strategies to recruit, develop, and retain a high-performing workforce
that will allow the Agency to:


5
    SSA's FY 2006 PAR, p. 110.
6
    Id., p. 109.
7
    Id., p. 101.
8
    Id., p. 51.

Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                  2
       •   Continue to provide service to the public that is timely and of the highest quality,
           and

       •   Increase the productivity resulting in a savings to the Old-Age, Survivors and
           Disability Insurance Trust Funds and general revenues. 9

SSA reported that the Agency uses a variety of tools to accomplish these goals,
including enhancements to the performance assessment systems and development of a
training curriculum for public contact positions. In addition, the Agency's investment in
the development and retention of staff will help in the accomplishment of its current
productivity goals.

RESULTS OF REVIEW
We did not identify any significant findings related to the internal controls, data reliability,
meaningfulness, accuracy of presentation, or disclosure of the information related to the
indicators "Align employee performance with Agency mission and strategic goals" and
"Minimize skill and knowledge gaps in mission-critical positions." However, SSA can
improve the internal controls, data reliability, meaningfulness, and accuracy of
presentation and disclosure of the information contained in the PAR for the indicator
"Continue to achieve 2 percent productivity improvement on average." We also noted
that prior year issues related to data completeness and access controls were not
addressed.

Align employee performance with Agency mission and strategic goals

Indicator Background

The FY 2006 goal for this performance indicator was to "Develop a communication and
training plan to facilitate implementation of the new performance assessment system for
employees at the GS-14 and below level and GS-15s who are covered by the
SSA/AFGE National Agreement." 10

           To facilitate implementation of the new performance assessment
           system, SSA has implemented communication and training plans that
           include management talking points, union notification, Interactive Video
           Teletraining, coordination of training cadres across the Agency, face-to-
           face training, and ongoing "frequently asked questions" updates. The
           training addresses technical changes to the performance management
           process, as well as communications skills. The multi-tiered results-
           oriented system was implemented October 1, 2006. 11


9
    Id., p. 51.
10
     Id., p.110.
11
     Id., p.110.

Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                        3
The performance appraisal system will improve the alignment of employee performance
to Agency strategic goals and objectives.

Performance Indicator Calculation


                                                   Developed a communication and
                                                   training plan to facilitate
                                                   implementation of the new
                    Performance               =    performance assessment system
                                                   for employees at the GS-14 and
                                                   below level and GS-15s who are
                                                   covered by the SSA/AFGE National
                                                   Agreement.


Findings

We did not identify any significant findings related to the internal controls, data reliability,
accuracy of presentation, meaningfulness, or disclosure of the information related to this
indicator contained in the PAR.

Minimize skill and knowledge gaps in mission-critical positions

Indicator Background

The FY 2006 goal for this performance indicator was to develop competency-based
entry-level training curriculum for 100 percent of the remaining targeted public contact
positions - BA, CA, and TST.

           It is critical that staff in these positions reach high levels of competence
           as quickly as possible and receive adequate and proper training…The
           BA, CA, and TST provide direct service to the public and are
           responsible for making critical decisions to determine entitlement and
           the amount of benefits paid to individuals. 12

SSA developed an entry-level training curriculum for these positions. 13 The purpose of
the redesign was to make the training competency-based and integrate technology into
the training, as well as build the courses to reflect these jobs as they exist today.




12
     Id., p. 109.
13
     Id., p. 109.


Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                    4
The Office of Training performed the following tasks to redesign the content of training:

     •   Developed a timeline for redesign of CA, BA and TST training.
     •   Discussed redesign project with components.
     •   Developed surveys with positions to determine job task.
     •   Conducted site visits to all processing centers.
     •   Developed draft curriculum for CA, BA, TST training.
     •   Consulted and discussed draft with users (employees).
     •   Developed final curriculum.
     •   Published curriculum.

Performance Indicator Calculation

                                                       Competency-based entry-level training
                                                      curriculum will be developed for 100% of
             Performance
                                              =         the remaining targeted public contact
                                                            positions - BA, CA, and TST.

Findings

We did not identify any significant findings related to the internal controls, data reliability,
accuracy of presentation, meaningfulness, or disclosure of the information related to this
indicator contained in the PAR.

Continue to achieve 2 percent productivity improvement on average

Indicator Background

The FY 2006 goal for this performance indicator was to achieve 2 percent productivity
improvement on average. This indicator was developed by the Division of Cost
Analysis (DCA) under the Deputy Commissioner for Budget, Finance and Management/
Office Financial Policy Operations. The SSA productivity performance indicator
calculation uses data from 52 established SSA-level workloads. These 52 workloads
represent all of the Agency's work, including work performed at its Regional Offices,
Field Offices, Disability Determination Services (DDS), Program Service Centers,
Hearing Offices, and the other components at SSA Headquarters. The initial
component data on the separate workloads is obtained from numerous system files and
reports with some limited manual processes. This data is fed into SSA's Cost Analysis
System (CAS). Component level workyears and counts for end-products are compiled
in CAS to generate the Agency level workloads, which are used in the calculation of this
indicator.

The workyear number is composed of paid workyear 14 information obtained for all
SSA’s components from the Payroll Operational Data Storage system through

14
   “Paid workyear” includes only workyear counts of full time employees. It excludes part time employees,
interns and volunteers.

Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                             5
prescripted queries and from the data files sent by the DDSs. The component workload
information is obtained from various SSA sub-systems, including the Processing Center
Action Control System, Earnings and Recording Maintenance System, Disability
Operational Data Store System, Case Processing Management System, and
Supplemental Security Income Records Maintenance System. This workload
information is manually input into CAS.

The workload and workyear components are compiled by analysts in DCA and
uploaded into the Pre-Input Cost Analysis (PICA) system before input into CAS. Once
in PICA, they are reviewed for reasonableness. After the information is input into CAS,
the SC3 Sum report 15 is generated from CAS, which includes the consolidated
information for workload and workyears for the period. The information on the SC3
Sum report is then manually input into the Excel productivity worksheet for comparison
to the base year. (Refer to Appendix C for an overview of the process.) The calculation
used in the Excel worksheet is below:

Performance Indicator Calculation

                                                            Total earned workyears*
     Percent change in Productivity          =       Total actual workyears used to process
                                                              SSA level workloads

*An earned workyear for one workload equals the current year processed count divided
by the prior year’s processed per workyear. A processed per workyear number is the
processed count by workload divided by the workyears for that same workload.

          The percent change in productivity is measured by comparing the total
          number of SSA and DDS workyears that would have been expended to
          process current year SSA-level workloads at the prior year’s rates of
          production to the actual SSA and DDS workyear totals expended. 16

Findings

Internal Controls and Data Reliability

Nine programmers had the "All" access designation within the Top Secret security
software to CAS datasets used to calculate the indicator results. This level of access
allows users to create, delete and modify any of the data (or datasets) contained within
the datasets we reviewed. Therefore, the data used to calculate the performance
indicator could be inappropriately modified and could impact the results of this
performance indicator. This level of access prevents SSA from ensuring the integrity of
this production data. By allowing programming personnel to have the "All" access
designation, SSA is not conforming to Office of Management and Budget Circular

15
  The report provides a top-down overview of each component organization’s workyears, payroll costs,
other object costs, total costs, and unit cost contributions to each of SSA’s end-product workloads.
16
     SSA's FY 2006 PAR, p. 101.

Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                             6
A-130, Management of Federal Information Resources, Appendix III, Security of Federal
Automated Information Resources, principles of "least privileged" access or segregation
of duties. 17 Thus, the data cannot be considered reliable since the access control issue
noted above created the potential for inappropriate alteration. It should be noted that
access was removed during the course of the audit.

During the prior audit of this indicator, 18 we previously noted that SSA management
provided limited documentation including: reports used at various stages of the process
to create the indicator; some of the processes performed in the CAS system, and
information pertaining to the source of some of the data used in the calculation.
However, the following documentation was not available for all 52 workloads and
therefore SSA was unable to provide a complete audit trail for the recalculation and
verification of the indicator:

•      A complete description and identification of the exact processes and computer
       programs used to obtain data from the source system files.
•      Clear identification of the exact system files and fields used to obtain initial source
       data.
•      A complete description and identification of the computer programs and interim
       calculations used to selectively combine, delete or alter original data, extracted from
       source system files, during each stage of the data refinement process.
•      A copy of the original source data extractions used in the calculation process to
       provide an audit trail for recalculation of the performance indicator.

The findings above have not been corrected by SSA.

Meaningfulness and Accuracy of PAR Presentation and Disclosure

During the prior audit of this indicator, 19 we also found that the calculation of the
performance indicator does not include time spent by contractors, which impacts the
overall meaningfulness of this indicator. This was partially corrected by SSA. In the
FY 2006 performance indicator results, SSA included the contractor workyears used at
the DDSs. However, the use of contractors varies from process to process, and
contractor workyears may represent a material input into other SSA processes.




17
   SSA is currently implementing the Standardized Security Profile Project to address the principle of
“least privileged” access for users with access to mainframe datasets.
18
     Performance Indicator Audit: Productivity (A-15-04-14073), November 17, 2004.
19
     Id.

Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                               7
CONCLUSION AND RECOMMENDATIONS
We reaffirm our previous recommendations noted in the prior audit of this indicator. We
continue to recommend that SSA take action to address these recommendations.
(Refer to Appendix D for the prior audit recommendations.)

Specific to the performance indicator, “Continue to achieve 2 percent productivity
improvement on average” we recommend SSA ensure that the “least privileged” access
principle is in place for SSA personnel who have the ability to directly modify, create or
delete the datasets used to calculate the results of this indicator.

AGENCY COMMENTS
The Agency agreed with our recommendations. In responding to the four
recommendations from the prior audit of this indicator, SSA stated that it agreed with
the recommendations but does not have the budgeted resources to implement them at
this time. In agreeing with our one new recommendation, SSA stated that it has already
taken steps to comply with the “least privileged” access rule. The full text of the
Agency’s comments are included in Appendix E.




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)               8
                                             Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Prior Audit Recommendations

APPENDIX E – Agency’s Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)
                                                                             Appendix A
Acronyms
AFGE        American Federation of Government Employees

BA          Benefit Authorizer

CA          Claim Authorizer

CAS         Cost Analysis System

DCA         Division of Cost Analysis

DDS         Disability Determination Service

FY          Fiscal Year

GAO         Government Accountability Office

GPRA        Government Performance and Results Act

GS          General Schedule

ODS         Operational Data Store

OHR         Office of Human Resources

OIG         Office of the Inspector General

OSM         Office of Strategic Management

PAR         Performance and Accountability Report

PICA        Pre-Input Cost Analysis

SSA         Social Security Administration

TST         Technical Support Technician

U.S.C.      United States Code




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)
                                                                             Appendix B

Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA provide
various documents regarding the specific programs being measured, as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

•   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
    General and other reports related to SSA’s GPRA performance and related
    information systems.
•   Reviewed applicable laws, regulations and SSA policy.
•   Met with the appropriate SSA personnel to confirm our understanding of the
    performance indicators.
•   Flowcharted the processes. (See Appendix C).
•   Tested key controls related to manual or basic computerized processes (e.g.,
    spreadsheets, databases, etc.).
•   Conducted and evaluated tests of the manual controls within and surrounding each
    of the critical applications to determine whether the tested controls were adequate to
    provide and maintain reliable data to be used when measuring the specific
    indicators.
•   Identified attributes, rules, and assumptions for each defined data element or source
    document.
•   Recalculated the metrics or algorithms of the performance indicators to ensure
    mathematical accuracy.
•   For those indicators with results that SSA determined using computerized data, we
    assessed the completeness and accuracy of that data to determine the data's
    reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these items interacted with related
processes within SSA and the existing measurement systems. Our understanding of
the Agency’s mission, goals, objectives, and processes were used to determine if the
performance indicators appear to be valid and appropriate given our understanding of
SSA’s mission, goals, objectives and processes. We followed all performance audit
standards in accordance with generally accepted government auditing standards.




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)            B-1
In addition to these steps, we specifically performed the following to test the indicators
included in this report:

ALIGN EMPLOYEE PERFORMANCE WITH AGENCY MISSION AND
STRATEGIC GOALS

• Reviewed policies and procedures, and training manuals for beta testing.
• Inspected project timeline (communication and training plan) for reasonableness.
• Inspected management's sign off of the project timeline.
• Inspected management's monitoring of project milestones.
• Training content outline, training workshops, and manuals were reviewed by Human
  Resource specialist for reasonableness.
• Inspected a list of employees that participated in beta testing meetings.
• Inspected a list of trainers that attended the trainer sessions.
• Reviewed interactive video teletraining broadcast schedules.

MINIMIZE SKILL AND KNOWLEDGE GAPS IN MISSION CRITICAL
POSITIONS

• Reviewed policies and procedures regarding the timeline development.
• Inspected project timeline (communication and training plan) for reasonableness.
• Inspected management's sign off of the project timeline.
• Inspected management's monitoring of project milestones.
• Determined if all milestones outlined in the timeline were completed timely.
• Inspected evidence that surveys were conducted with the Benefits Authorizer, Claims
  Authorizer, and Technical Support Technicians job positions.
• Curriculum was reviewed by Human Resource specialist for reasonableness.

CONTINUE TO ACHIEVE 2 PERCENT PRODUCTIVITY IMPROVEMENT
ON AVERAGE

• Inspected consistency review performed by Division of Cost Analysis analyst.
• Observed the BRIO Query session.
• Reviewed the information on tables for a sample of the components to the information
  in the pivot table and determine if the pivot table is consistent with the BRIO Query.
• Traced data from the Pivot Tables to the SC-3 sum report for completeness.
• Verified that SC-3 Sum report is inputted accurately into the Excel productivity
  worksheet.
• Reviewed workload methodology.




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)               B-2
                                                                             Appendix C

Flowchart of Align Employee Performance with
Agency Mission and Strategic Goals
     Performance Management                      Executive Forum        :
        Planning Workgroup           :        Meets on an “as needed”
    Meets weekly to develop the                basis to discuss project
 timeline and to monitor activities to           updates and obtain
  ensure they are occurring on time          consensus on certain items


                                                Executive Steering
Development of the training timeline                 Committee :
      and implementation plan                Meets bi -weekly to identify
                                               and resolve problems



                                            Communication and Training
             Training process
                                              Plans are developed and
               is developed
                                                       approved




            Beta Site Training
                Content is
                developed



               Prepare and
            conduct pilot Beta
                    Site




 Modifications are made Manager’s
  Agency - wide Training based on
          Beta Site Feedback




 Create training for Train the Trainer
   sessions . Provide Agency -wide
      Train the Trainer sessions
                                                      Feedback and
                                                   troubleshooting is
                                                 performed via training
                                                    conference calls
    Two - day manager training is
 conducted and employee training is
              conducted

                                                      Feedback and
                                                   troubleshooting is
     Human Capital Planning Staff                 performed via email
  reports the final indicator results to                 mailbox
 the Office of Strategic Management
                     (OSM )




  OSM publishes the results in the
 Performance Accountability Report




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)           C-1
Align Employee Performance with Agency Mission and Strategic Goals

   •   Performance Management Planning Workgroup meets weekly to develop the
       timeline and monitor activities to ensure that project time line is properly followed.
          o Executive Forum met on "as needed” basis to discuss project updates and
              obtain consensus on certain items
          o Executive Steering Committee met bi-weekly to identify and resolve
              problems.
          o Communication and training plans are developed and approved.
   •   The training timeline and implementation plan is developed.
   •   Training process is developed.
   •   Beta Site training content is developed.
   •   Prepare and conduct the pilot Beta Site training.
   •   Modifications are made to Manager's Agency-wide Training based on Beta Site
       Feedback.
   •   Create training for Train the Trainer Sessions. Agency-wide Train the Trainer
       Sessions are provided.
   •   Conducted 2-day manager training and employee training.
          o Feedback and troubleshooting is performed via training conference calls.
          o Feedback and troubleshooting is performed via email mailbox.
   •   Human Capital Planning Staff reports final indicator results to the Office of
       Strategic Management (OSM.)
   •   OSM published results in the Performance Accountability Report (PAR).




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)               C-2
Flowchart of Minimize Skill and Knowledge
Gaps in Mission-Critical Positions
     Develop timeline for project
   redesign of Benefit Authorizers
  (BA), Claim Authorizers (CA) and
   Technical Support Technicians
            (TST) training



    Discuss redesign project with
           Components



  Develop surveys with positions to
        determine job task



       Conduct site visits to all
         processing centers




   Develop draft curriculum for BA,
          CA, TST training




    Consult and discuss draft with
        users (employees)




       Develop Final curriculum




          Publish curriculum




   Report Indicator results to Office
   of Strategic Management (OSM)




    OSM published results in the
    Performance Accountability
             Report




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)   C-3
Minimize Skill and Knowledge Gaps in Mission-Critical Positions

   •   Office of Human Resources (OHR) creates a timeline for the project.
   •   OHR discusses project redesign with components.
   •   OHR conducts survey to determine job tasks for each Claim Authorizers (CA),
       Benefit Authorizer (BA) and Technical Support Technician (TST).
   •   OHR develops a draft curriculum for each Claim Authorizer, BA and TST.
   •   Consulted and discussed draft with employees.
   •   OHR develops final curriculum.
   •   The final curriculum is published.
   •   OHR reports indicator results to OSM.
   •   OSM published results in the PAR.




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)           C-4
Flowchart of Continue to Achieve 2 Percent
Productivity Improvement on Average

                                                                              Workload
             Control WorkYears
                                                                               Counts
                    (WY)




           Division of Cost Analysis
                 (DCA) Analyst
          Extracts Payroll information
                      from
           Operational Data Storage
                                                                 The following workload counts are
                                                                              extracted:
                                                              - Disability Determination Service
                                                              - Federal Disability Determination
                                                                                                                      DCA Analyst
                                                              Services
                                                                                                                      Extracts the
             Calculate Agency                                 - Office of Hearings and Appeals
                                                                                                                       Workload
        Control WYs by Component                              - Field Office
                                                                                                                        Counts
                                                              - Program Service Center
                                                              - Office of Disability and International
                                                              Operations
                  Is data            No                       - Office of the Executive Operations
              reasonable and
                 accurate?
                                                                                                         No              Is data
                                                                                                                     reasonable and
                         Yes                                                                                            accurate?
                                                                          Investigate/Resolve
          Approve and distribute
             to DCA analyst                                                                                           Yes


                                                      Feeder Cost Analysis System (CAS)
         DCA analyst perform split
         by category and workload         To Feeder                                                           To Feeder CAS
                                            CAS




                                                               A                     B




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                                                            C-5
Flowchart of Continue to Achieve 2 Percent
Productivity Improvement on Average
Continued
                                                      Is data                 No
                                                  reasonable and                             B
   A
                                                     accurate?
                                                                            To DCA Analyst
Feeder CAS                                                                  For Resolution
                                                              Yes


                                           Create Pre-Input Cost Analysis
                                                    File (PICA)




                                       No             Is data
                                                  reasonable and
                                                     accurate?
                          To DCA Analyst
                          For Resolution
                                                             Yes




                                                  Upload to CAS                       D




                                                     Run CAS




                                               Generate reports and
                                             distribute to DCA analyst




                                                         C




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                       C-6
Flowchart of Continue to Achieve 2 Percent
Productivity Improvement on Average
Continued
                                                               Is data                   No
                                                           Reasonable and                                                      D
           C
                                                             Accurate?
                                                                                  To DCA Analyst
    Generate Reports &                                                            For Resolution
    Distribute to DCA Analysts                                        Yes

                                                    Data extracted from CAS,
                                                Input to productivity excel file (SC -
                                                              3 File)
                                 Investigate/
                                 Resolve



                                                No              Is data
                                                            reasonable and
                                                               accurate?


                                                                      Yes

                                                     Distribute to Division Director
                                                               for approval


                                 Investigate/
                                 Resolve
                                                No              Is data
                                                            reasonable and
                                                               accurate?

                                                                        Yes

                                                      Distribute to Office Director
                                                            For approval (4)



                                 Investigate/
                                 Resolve        No              Is data
                                                            reasonable and
                                                               accurate?

                                                                               Yes             Distribute to Office of
                                                                                              Strategic Management




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                                               C-7
   Continue to Achieve 2 Percent Productivity
   Improvement on Average
   Control Workyears
   • Division of Cost Analysis (DCA) analyst extracts payroll data from Operational
     Data Storage (ODS).
   • DCA calculates Agency control Workyears by component.
   • Is data reasonable and accurate?
         • Yes – Approve and distribute to DCA analyst.
         • No – DCA analyst re-extracts Payroll ODS data.
   • DCA analyst performs split by category and workload.
   • The data is sent to Feeder Cost Analysis System (CAS).

   Workload Counts
   • Workload counts are included from Disability Determination Services, Federal
     Disability Determination Services, Office of Disability Adjudication and Review,
     Field Offices, Office of Executive Operations, Program Service Center, and
     Office of Disability and International Operations.
   • DCA analyst extracts workload data.
   • Is data reasonable and accurate?
         • Yes – Send to Feeder CAS.
         • No – DCA analyst investigates and resolves the issue and re-extracts
            workload data.
   • Feeder CAS processes the data.
   • Is data reasonable and accurate?
         • Yes – Create Pre-Input Cost Analysis (PICA)
         • No – Send to DCA Analyst for resolution
                 Sent to Feeder CAS for reprocessing after resolution
   • PICA is created.
   • Is data reasonable and accurate?
         • Yes – Upload to CAS.
         • No – Send to DCA Analyst for resolution.
                 Create new PICA after resolution
   • Run CAS.
   • Generate reports and distribute to DCA Analysts.
   • Is data reasonable and accurate?
         • Yes – Data extracted from CAS and input to Excel file.
         • No - Sent to DCA Analyst for resolution.
                 After resolution, uploaded to CAS before it is run again.
   • Is data reasonable and accurate?
         • Yes – Distribute to Division Director for Approval.
         • No – Sent to DCA Analyst to investigate and resolve.



Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)            C-8
                                                                                    Appendix D

Prior Audit Recommendations
During a prior audit 1 of the performance indicator, Continue to Achieve 2% Productivity,
we provided the Social Security Administration with the recommendations below:

      1. Establish formal written documentation for the performance indicator that
         includes a complete description and identification of the exact processes and
         computer programs used to obtain data from the source system files for all
         52 workloads.

      2. Establish formal written documentation for the performance indicator that
         includes a clear identification of the exact system files and fields used to obtain
         the initial source data for each workload.

      3. Establish formal written documentation for the performance indicator that
         includes a complete description and identification of the computer programs and
         interim calculations used to selectively combine, delete or alter original data
         extracted from source system files during each stage of the data refinement
         process.

      4. Establish formal written documentation for the performance indicator that
         includes a requirement to maintain an exact copy of the original source data
         extracted for each of the 52 workloads.




1
    Performance Indicator Audit: Productivity (A-15-04-14073), November 17, 2004.


Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)
                                                                             Appendix E

Agency Comments




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)
                                 SOCIAL SECURITY
MEMORANDUM


Date:      September 13, 2007                                           Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General
From:      Larry W. Dye /s/
Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit:
           Staff Skills and Productivity” (A-02-07-17127)--INFORMATION

We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
are attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at 410 965-4636.

Attachment:
SSA Response




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                     E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE INDICATOR AUDIT: STAFF SKILLS AND
PRODUCTIVITY” (A-02-07-17127)


Thank you for the opportunity to review and provide comments on this draft report. While the
specific indicators audited for this period were different as compared to the indicators reviewed
in the November 14, 2004 Final Report: “Performance Indicator Audit: Productivity”
(A-15-04-14073), the findings and recommendations related to productivity remain essentially
the same. Specifically this report states, “We reaffirm our previous recommendations noted in
the prior audit of this indicator. We continue to recommend that SSA take action to address
these recommendations.” (Refer to Appendix D for the prior audit recommendations.)

In our September 24, 2004, written response to recommendations 3-6, in the draft report, we
stated, “We agree. However, we do not have the budgeted systems resources to implement them
at this time.” For this current audit, our position with respect to the repeated recommendations
(renumbered 1-4) contained in Appendix D remains unchanged. We reaffirm that the Social
Security Administration (SSA) does not have the budgeted systems resources to implement these
recommendations.

We also note that recommendation 5, contained in Appendix D, was not included as a
recommendation in the 2004 audit. In accordance with SSA and OIG staff discussions, we are
not responding to recommendation 5 since it was not part of the final report in November 2004
and was erroneously included in this report.

The following responds to the one new recommendation contained in the report.

Recommendation 1

Specific to the performance indicator, “Continue to achieve 2 percent productivity improvement
on average,” SSA should ensure that the “least privilege” access principle is in place for SSA
personnel who have the ability to directly modify, create or delete the datasets used to calculate
the results of this indicator.

Comment

We agree. We have already taken steps to comply with the “least privileged” access rule and
appreciate OIG’s acknowledgement of that fact in the report.




Performance Indicator Audit: Staff Skills and Productivity (A-02-07-17127)                    E-2
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                     Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                     Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                                Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
